APPENDIX A

IN THE COURT OF CRIMINAL APPEALS OF TENNESSEE
AT KNOXVILLE
Assigned on Briefs March 24, 2020
ABRAHAM A. AUGUSTIN v. STATE OF TENNESSEE
Appeal from the Criminal Court for McMinn County
No. 05-553
Andrew M. Freiberg, Judge
filed

No. E2019-01739-CCA-R3-PC

APR 2 8 2020
Reckd°bytheAPPe,lateCourt

JUDGMENT
Came the Petitioner, Abraham A. Augustin, pro se, and the State, by the Attorney
General, and this case was heard on the record on appeal from the Criminal Court for
McMinn County; and upon consideration thereof, this court is of the opinion that there is
no error in the judgment of the post-conviction court.
It is, therefore, ordered and adjudged by this court that the judgment of the
post-conviction court is affirmed, and the case is remanded to the Criminal Court for
McMinn County for execution of the judgment of that court and for collection of costs
accrued below.
Because it appears to the Court that the Petitioner, Abraham A. Augustin, is
indigent, costs are taxed to the State of Tennessee.

John Everett Williams, Presiding Judge
Thomas T. Woodall, Judge
Robert L. Holloway, Jr., Judge

IN THE COURT OF APPEALS OF TENNESSEE
AT KNOXVILLE
Assigned on Briefs March 24, 2020
ABRAHAM A. AUGUSTIN v. STATE OF TENNESSEE
Appeal from the Criminal Court for McMinn County
No. 05-553
Andrew M. Freiberg, Judge

No, E2019-01739-CCA-R3-PC

FILED

APR 2 8 20;
Clerk of the Appellate
Rec'd by

The Petitioner, Abraham A. Augustin appeals the post-conviction court’s summary
dismissal of his pro se petition for post-conviction relief. The Petitioner maintains that
the statute of limitations should be tolled based on newly discovered evidence. After a
review of the record and applicable law, we affirm the post-conviction court’s summary
dismissal of the petition.

Tenn. R. App. P. 3 Appeal as of Right; Judgment of the Criminal Court Affirmed
John Everett Williams, P.J., delivered the opinion of the court, in which Thomas T.
Woodall and Robert L. Holloway, Jr., JJ., joined.
Abraham Augustin, pro se, Coleman, Florida.
Herbert H. Slatery III, Attorney General and Reporter; Sophia S. Lee, Senior Assistant
Attorney General; and Stephen D. Crump, District Attorney General, for the appellee
State of Tennessee.

OPINION
FACTS AND PROCEDURAL BACKGROUND
In September of 2006, the Petitioner pleaded guilty to three counts of accessory
after the fact of attempted first degree murder. The trial court imposed concurrent
sentences of two years for each count. The judgments were entered on September 14,
2006.
’
On March 1,2019, the Petitioner filed a petition for post-conviction relief, arguing

that
• ,,his+. pleas were not knowingly and voluntarily entered because of trial conmel’c
neffectiveness. The Petitioner asserted that trial counsel “failed to research the law to

££•=
-'^1—
ttttsws:
as
—-S" £5 £=£,^=“2,”
offenses for which he was convicted and therefore A\A

y

,

0t the

ttal c’ourt failed

On March 7, 2019, the post-conviction court entered an order summarilv

The Petitioner filed a

convicnon court entered an order finding that the Tennessee Rules of Criminal Procedure

SS& SCK™

SiJr=" s1zsr* - ** ~ ■* “ ANALYSIS

The Petitioner maintains that he is entitled tr>
,~.e +1,
limitations based on the verdict in MrB SfaJtr°iwhkht0^ ^tute of
dew,y discovered evidence. He
attempted first degree murder, the Petitioner could not have been
er the fact and, therefore, did not enter a knowing and voluntary plea

“*

with the State.

The Stand

r “ s,t r- *• —»

P‘10n or tolling for due process considerations. We agree

^&Tzsczs?&i »«?%:•«
-2-

for post-conviction relief is required to be filed “within one (1) year of the date nfti,
inal action of the highest state appellate court to which an appeal is taken or if nn a
40^1 CwTa 0> "T ^
°" wWch 1116 jud8ment
finai.” X.cT§
its ent'rl nLf . gT
™ e,,a ‘r,al °°m’S judgment
final thirty days after
Peeled S.W.3d
2000*' "
P°SWlia' m°,i0n “ filed” *** *
later
^dgm™tsWQreentQre<* on September 14, 2006, and became final thirty days
netit'
f Cnn
PP' P'
The Pethioner had until October 14 2007 to file a
petition for post-conviction relief. However, he did not file his pe’tifion for
conviction relief until March 1, 2019 , over
pennon tor
and over

.1...

^ ,w,„ta JZZSZ

ng a petition
meet the exceptions, a
has subsequently ^tundTbe^

limitnt'
A petJIoner ls entitled to due process tolling of the
one-year statute of
limitations upon a showing (1) that he or she has been
pursuing
his or her rights
diligently, and (2) that
some extraordinary circumstance stood in his or her way and
prevented timely filing.
Bush v State• 42« S.W.3d 1, 22 (Tenn. 2014) (citing
Whitehead, 402 S.W.3d at 631).

“oncest,hta,:alirforiequi,abla

t'szsT

or:r, ssrssas

rrrra? srir j
was entitled to
equitable tolling of the statute of limitations “because he i
is actually innocent of the
-3 -

finding that it wouldf otfcfffr
Jfv’e P°st'conviction court entered an order
Criminal Procedure do not recode I mo,
beCaUSe “Whe lessee (R“les of
S.W.3d 244, 245 n.2 (Tenn 2003V7J T T,‘° reconsider ” See State v. Turco 108
CCA-R3-PC, 2018 WL 1151949, at *2
^ N°' W20I7-°<>7621 mg a motion to reconsider after the denial of a DOsfPP — 2’ 20,S) (“Wc note that
procedure/’). The post-conviction
Peti,ion is ™* P‘°Per
consider the Petitioner’s motion to reconsMer R
c "g that * did ™< have to
that the Petitioner raised the tolling argument that atmT ^ m0t'°n Was the first ‘‘me
waiver, Ute Petitioner has failed to eslwi^a bis
n ‘S Wa,Ved' Regardless of
no etails regarding the verdict in Mr Bradford’s trial ° i"'®’ >K Pet“'°ner provides
We conclude that such a claim does not fuf1
tf
?
Verdict was tendered,
more than eleven years after the expiration of t! ttatme'of if f pOSt‘conviction Petition
POS.-convic„on court did no, err in summarily

S”*
n as untimely.

CONCLUSION
court.

Based on the foregoing analysis,
we affirm the judgment of the

post-conviction

s'

-4 -

!

i

IN THE CRIMINAL COURT FOR MCMINN COUNTY, TENNESSEE FILED
ABRAHAM A. AUGUSTIN,
Petitioner,
VS.

PCR
Case No.l-9-CR(original case no. 05-553)

STATE OF TENNESSEE,
Respondent.

ORDER OF DISMISSAL

This matter came to be heard upon pro se Petitioner’s pleading titled, “PostConviction Motion” (hereafter referred to as “Petition”), and filed with the Clerk of Court
on March 1,2019 in the McMinn County Criminal Court. In an effort to afford a pro se
litigant extreme deference, this Court has reviewed the substance of Petitioner’s claims
and treated said pleading as a petition seeking post-conviction relief. The Court, having
reviewed the Petition, having taken judicial notice of the record included in the applicable
court file in the matter at bar, being fully advised of the issues presented by pleading, and
for good cause shown, enters an ORDER denying any relief. The Court further makes
the following findings of fact and law in entering an ORDER OF DISMISSAL on said
Petition pursuant to Term. Code Ann. § 40-30-101 et seq., as said Petition is untimely and
fails to satisfy the requirements for an exemption to the statute of limitation bar.

a
SSS&

smz
1

S^-V,

PROCEDURAL HISTORY
Petitioner, Abraham A. Augustin (hereafter referred to as “Petitioner”), entered a
guilty plea in case number 05-553 before the McMinn County Criminal Court on
September 11,2006, and was sentenced by the trial court on September 14, 2006 as
follows:
•

Count 1 - Guilty plea to the offense of Class E felony accessory after
the fact to attempted first degree murder in violation Tenn. Code Ann.
§ 39-11-411, receiving a two year term to serve in the Tennessee
Department of Correction with an attendant assessment of court costs;

•

Count 2 - Guilty plea to the offense of Class E felony accessory after
the fact to attempted first degree murder in violation Tenn. Code Ann.
§ 39-11-411, receiving a two year term to serve in the Tennessee
Department of Correction with an attendant assessment of court costs;
and

•

Count 3 - Guilty plea to the offense of Class E felony accessory after
the fact to attempted first degree murder in violation Tenn. Code Ann.
§39-11-411, receiving a two year term to serve in the Tennessee
Department of Correction with an attendant assessment of court costs.

These offenses were run concurrently with one another for an effective two year sentence
with Petitioner classified as a standard offender. Petitioner was represented by retained
counsel, Mitchell Bryant of the McMinn County bar, at the time of his guilty plea in
September of 2006. Petitioner voluntarily elected to waive his rights to resolve this case
by plea short of trial or any appeal as evidenced by the written waiver of rights forms

2

included in the Clerk of Court file of this matter and entered the same date as Petitioner’s
entry of guilty pleas on September 11, 2006.
Subsequent to Petitioner’s plea and sentencing date of September 14, 2006,
I

defendant was released to probation upon reaching his release eligibility date pursuant to
Term. Code Ann. § 40-35-501 (a)(3). A violation of probation warrant was filed against
Petitioner alleging he had violated the terms and conditions of his alternative sentence.
Ultimately, this violation of probation warrant filed against Petitioner resulted in a
revocation order dated March 17, 2008. Upon revocation, Petitioner was ordered to serve
ninety days jail before reinstatement to the original terms of his sentence. Thereafter,
Petitioner was discharged from probation and his two year sentence expired by trial court
order dated April 28, 2008. The underlying facts of these offenses, and Petitioner’s
history of supervision, are not relevant to Petitioner’s post-conviction claims, nor to this
Court in issuing an ORDER OF DISMISSAL.
Petitioner now appears before the Court having filed this present pro se Petition
for post-conviction relief filed with the Clerk of Court on March 1,2019. Petitioner
challenges at bar, albeit indirectly, his continued detention in the federal prison system on
unrelated matters. Petitioner indicates he is a military veteran who is now at risk of
deportation to his native Haiti. This Court strongly suspects that Petitioner’s aim is to
somehow overturn these stale state-level convictions which were likely used against him
as part of his current federal incarceration term. If somehow successful, Petitioner could
thereafter seek to procure an early release from his current federal detention. Petitioner
seeks to collaterally attack this state conviction and sentence, alleging constitutional
violation or error by Petition. The alleged ground upon which relief is sought is the claim

3

that Petitioner received the ineffective assistance of counsel in the trial court which
likewise resulted in an “involuntary and unintelligent plea”. Petitioner asserts factual
allegations to support the conclusory claim contained in the Petition for relief.

Petitioner

Augustin begs this Court to grant an evidentiary hearing to find his plea
unconstitutional”.

ANALYSIS
Petitioner’s Petition is untimely and fails to satisfy the requirements for an
exemption to the statute of limitations bar.
The Petitioner’s claim before this Court is time-barred. Tenn. Code Ann. § 4030-102(a) provides, “[] a person in custody under a sentence of a court of this state must
petition for post-conviction relief under this part [] within one (1) year of the date on
which the judgment became final, or consideration of the petition shall be barred.” In the
instant case, Petitioner entered a plea of guilty and waiver of appeal on September 11,
2006. Thereafter, Petitioner was sentenced on September 14, 2006. Typically, a
judgment of conviction entered upon a guilty plea becomes final thirty days after
acceptance of the plea agreement and imposition of sentence. See State v. Green, 106
S. W.3d 646 (Tenn. 2003). Thus, the Petitioner’s judgments at issue became final on
October 14, 2006. Therefore, Petitioner was statutorily required to file a petition seeking
post-conviction relief on, or before, October 14, 2007. Petitioner appears now before the
Post-Conviction Court having filed for relief in the instant cause on March 1,
in excess of the strict one year limitation period.

2019, well

Furthermore, the Petitioner asserts no basis in fact in this Petition upon which the
statute of limitation period could possibly be suspended in this case in the interest of
justice. Tennessee Courts have repeatedly held that constitutional due process will
mandate the tolling of limitation statutes in post-conviction proceedings under certain,
limited circumstances. See generally Seals v. State, 23 S.W.3d 272 (Tenn. 2000) (Due
process may require the tolling of the statute of limitations setforth in the PostConviction Procedure Act to afford a litigant the opportunityfor the presentation of
claims at a meaningful time and in a meaningful manner). Additionally, circumstances
precluding a defendant from filing a timely application because of a misrepresentation of
counsel may toll the limitation period based upon due process considerations, Williams
v. State, 44 S.W.3d 464 (Tenn. 2001).
Thus, while Tenn. Code Ann. § 40-30-102(b) states that “[n]o court shall have
jurisdiction to consider a petition [for post-conviction relief] filed after the expiration of
the limitations period”, there are three narrowly proscribed statutory exceptions to this
limitations mandate. Whitehead v. State, 402 S.W.3d 615 (Tenn. 2013). These three
exceptions include: (1) claims based on a newly recognized constitutional right that
applies retroactively, and that are filed within one year of the ruling recognizing that
right; (2) claims based on new scientific evidence that proves that the prisoner is innocent
of the offense; and (3) claims seeking relief from a sentence that

was enhanced because

of a previous conviction that was subsequently held to be invalid. Id. Petitioner at bar
does not claim any of these three statutory exceptional circumstances apply in his

case.

Petitioner attempts to claim protections under the opinion pronounced in Padilla v.
Kentucky, 559 U.S. 356 (2010), by claiming to have never been informed of the

immigration consequences of his plea at bar. However, in Chaidez

v. U.S., 568 U.S. 342

(2013), the Supreme Court determined that the Padilla ruling could not be applied
retroactively because the Padilla case applied a new rule to the Sixth Amendment to the
United States Constitution. Even taking Petitioner’s claim on its face, Petitioner has
tamed too long and well in excess of the one year limitations period, however measured.
In addition to these statutory exceptions, our state courts have identified three
additional circumstances, to date, in which due process requires tolling the postconviction statute of limitation. Whitehead v. State, 402 S.W.3d 615 (Tenn. 2013). The
first circumstance involves claims for relief that arise after the statute of limitation has
expired. Id. The second due process basis for tolling the statute of limitations involves
prisoners whose mental incompetence prevents them from complying with the

statute's

deadline. Id. The third circumstance, as noted above, are those precluding a defendant
from filing a timely application because of a misrepresentation of counsel. Id. However,
these tolling remedies must be used sparingly in extreme cases where the failure to
invoke principles of equity and due process would lead to unacceptably unjust outcomes.
Id.
In determining whether strict application of the statute of limitation violates due
process under the unique and totality of the circumstances in a given case, precedent
instructs courts to utilize a three step inquiry:
0) Determine when the limitations period would normally have begun to
(2) Determine whether the grounds for relief actually arose after the
limitation period would normally have commenced; and

(3) Determine if, under the facts of the case and if later-arising grounds
exist, a strict application of the limitation period would effectively
deny a petitioner a reasonable opportunity to present the claim.
See Smith v. State, 357 S.W.3d 322, 357 (Tenn. 2011); Seals, 23 S.W.3d at 277; Sands v.
State, 903 S.W.2d 297 (Tenn. 1995). Due process principles are flexible and require a
balancing test weighing a petitioner’s liberty interest against the State’s interest in the
finality ofjudgments on a case-by-case analysis. Smith, 357 S.W.3d at 357 (citing
Burford v. State, 845 S.W.2d 204 (Tenn. 1992)). Pointedly, the threshold necessary to
trigger such tolling is very high, lest the exceptions swallow the rule. Whitehead v. State,
402 S.W.3d 615, 632 (Tenn. 2013). This is especially true here in Tennessee, where our
General Assembly has expressed its clear intention that the post-conviction filing
deadline be construed as strictly as possible. Id.
Petitioner, as the proponent, bears the burden of making a prima facie showing
requiring a due process tolling of the statute of limitation under our Post-Conviction
Procedure Act, Tenn. Code Ann. § 40-30-101 et seq. See generally State v. Nix, 40
S.W.3d 459 (Tenn. 2001) (It is incumbent upon a petitioner to include allegations offact
in the petition establishing either timely fding or tolling ofthe statutory period). In the
instant case, the Petitioner makes no factual assertions that would warrant anything but a
strict application of the one year statute of limitation period applicable in post-conviction
cases. See Tenn. Code Ann. § 40-30-102. Petitioner makes no tolling claim in this
Petition, and the statute of limitation bar prevents consideration of his claims on the
merits. Our legislature has made clear that the one year statutory filing requirement is to
be strictly enforced, lest the rule be eviscerated and left without purposeful effect. See
Tenn. Code Ann. § 40-30-101 et seq.

7

By delaying for over eleven years longer than the limitation period allows by
statute , Petitioner has relinquished his ability to seek timely post-conviction relief in this
case as a matter of law. It was Petitioner’s responsibility to pursue this litigation in
timely maimer and he failed to do so. Petitioner has not made any prima facie showing,
legally recognized by precedent, to warrant the tolling of the one year time bar

. In taking
judicial notice of the file and pleadings impacting Petitioner’s case since conviction
and
sentence, as cited and referred in this ORDER OF DISMISSAL, this Court finds the
credible evidence needed to substantiate any claim of due process toiling to be wholly
lacking. Petitioner has not made a sufficient, prima facie showing of fact necessary to
toll the limitations period and, as such, has not met his burden of proof.
Thus, this Court finds the Petition to be time-barred warranting

summary

dismissal. Petitioner delayed in excess of eleven years before seeking to file this Petition
from the date on which the judgments became final in this

case. In affording Petitioner, a

pro se litigant, extreme deference, this Court also considered the

substance of this
Petition to determine the potential existence of any late-arising claims. However, no late-

anstng claims are present at bar as contained in this Petition that implicate a
constitutional violation in Petitioner’s convictions.
applied to Petitioner’s benefit retroactively, even

While the Padilla ruling cannot be

that semblance of a late-arising claim

was eight years ago. The only circumstance which has changed since
to be Petitioner’s incarceration in a Florida federal pri

conviction appears

son and an impending immigration

deportation. However, time is of the essence
in post-conviction matters. See Tenn. Code
Ann. § 40-30-102(a). Any prima facie showing of mistake of fact

would necessarily have
to extend and span the entirety of the significant lapse of time the Petit.'
oner delayed

8

before filing this post-conviction pleading to validly toll the limitations period

and to

warrant foil consideration of the merits of his allegations. See generally Harris

v. State,

2012 Tenn. Crim. App. LEXIS 183 (Tern, Crim. App. Mar. 16, 2012) (Due process did
not require lolling ofthe statute oflimitations in T.C.A. § 40-30-102(a) b ecause
defendant failed to make aprimafacie showing of incompetence during the entire time of
delay since his date of conviction).
In this present post-conviction matter, Petitioner has delayed more than a year
from that date his judgments of conviction became final in violation of the strict
limitations period applicable in post-conviction cases, even affording the pro se litigant
every inference and benefit of the doubt. The administration ofjustice and the integrity
of our court system itself demand, in addition to due process and fair treatment under the
law, a certain degree of finality to criminal judgments and proceedings. See generally
Harrison v. Siaie, 394 S.W.2d 713, 717-18 (Tenn. 1964); Slaie v. Mixon, 983 S.W.2d
661 (Tenn. 1999). This Court finds that the Petitioner’s claim is barred by the strictly
construed statute of limitations contained in Tenn. Code Ann. § 40-30-102(a). This
procedural and summary dismissal at bar has not effectively denied the Petitioner a
reasonable opportunity to present a meaningful claim in a meaningful manner. To the
contrary, Petitioner has himself relinquished any post-conviction opportunities the law
provided him through his own delay. Petitioner is not entitled to relief and this Petition is
hereby denied and dismissed.

WHEREFORE, based upon the foregoing legal and factual grounds cited herein,
^ CO“" "" " 0RDER °F D,SMIS“1- finding tha, said Petition is un,ime,y and
fails to satisfy the requirements foran

exemption to the statute of limitation bar.

Furthermore, no late-arising claim is alieged herein ,o warrant further proceed!
ngs. This
matter is hereby dismissed.

So ORDERED and entered this 7th day of March,

2019.

Aa

Judge Andrew Mark Freiperg
Circuit Court of the 10th judicial District

10

ppe-o drx

IN THE SUPREME COURT OF TENNESSEE
AT KNOXVILLE
ABRAHAM A. AUGUSTIN v. STATE OF TENNESSEE
McMinn County Criminal Court
05-553
No. E2019-01739-SC-R11-PC
Date Printed: 07/17/2020

Notice / Filed Date: 07/17/2020

______________ NOTICE - Case Dispositional Decision - TRAP 11 Denied
The Appellate Court Clerk's Office has entered the above action.

James M. Hivner
Clerk of the Appellate Courts

IN THE SUPREME COURT OF TENNESSEE
AT KNOXVILLE

FILED
07/17/2020
Clerk of the
Appellate Courts

ABRAHAM A. AUGUSTIN v. STATE OF TENNESSEE
Criminal Court for McMinn County
No. 05-553

No. E2019-01739-SC-R11-PC

ORDER
10 appeal of Abraham

PER CURIAM

